     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region VII
                                                                          601 East 12th Street, Room 0429
                                                                          Kansas City, MO 64106




October 7, 2010

Report Number: A-07-09-01077

Ms. Vivianne M. Chaumont
Director
Division of Medicaid & Long-Term Care
Department of Health & Human Services
301 Centennial Mall South
Lincoln, NE 68509

Dear Ms. Chaumont:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Nebraska Medicaid Payments for Home Health
Agency Claims. We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Chris Bresette, Audit Manager, at (816) 426-3591 or through email at
Chris.Bresette@oig.hhs.gov. Please refer to report number A-07-09-01077 in all
correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Ms. Vivianne M. Chaumont

Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




    REVIEW OF NEBRASKA
  MEDICAID PAYMENTS FOR
HOME HEALTH AGENCY CLAIMS




                      Daniel R. Levinson
                       Inspector General

                        October 2010
                        A-07-09-01077
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Nebraska, the Department of Health & Human
Services (State agency) administers the State’s Medicaid program in accordance with its CMS-
approved State plan.

A home health agency (HHA) provides skilled nursing services, home health aide services, and
medical supplies and equipment to Medicaid recipients. Nebraska Administrative Code 471,
section 9-002.02, states that all home health services must be necessary to a continuing medical
treatment plan, prescribed by a licensed physician, and recertified by the licensed physician
every 60 days. In addition, Nebraska Administrative Code 471, section 2-001.03, requires that
HHAs submit claims which are true, accurate, and complete, and maintain records on all services
provided for which a claim has been made. HHAs submit claims to the State agency in order to
receive compensation for the services they provide to Medicaid recipients.

The responsibilities of the State agency include processing and monitoring HHA claims. As part
of its monitoring responsibilities, the State agency has controls in place to ensure that payment
limitations, such as a daily payment cap on nursing services and limits on therapy services, are
not exceeded. If a problem or concern is identified, the State agency reviews a provider’s
supporting documentation to ensure that the payment is appropriate. The State agency then
submits to CMS its Medicaid expenditures for the Federal share of its claimed costs.

For the period July 1, 2008, through June 30, 2009, the State agency claimed a total of
approximately $23.1 million (approximately $14.9 million Federal share) for all HHA services.
For this review we focused on 84 HHA providers throughout the State of Nebraska that claimed
approximately $20.3 million (approximately $13.1 million Federal share) for HHA services.

OBJECTIVE

Our objective was to determine whether the State agency claimed costs for HHA services in
accordance with Federal and State requirements.

SUMMARY OF FINDINGS

The State agency claimed some costs for HHA services that were not in accordance with Federal
or State requirements. Our review of the 100 claims in our sample showed that 9 claims had
errors totaling $764 ($489 Federal share) of improper Medicaid reimbursement. The errors


                                                i
included 4 claims with unauthorized services, 4 claims for which a billed service was not
rendered, and 1 claim with unsupported services.

Based on the results of our sample, we estimated that the State agency improperly claimed
$56,049 ($36,761 Federal share) for HHA services that did not comply with Federal and State
requirements. Although the State agency had controls in place to ensure that payments were
appropriate for HHA claims, these controls did not always prevent the overpayments.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $36,761 to the Federal Government for unallowable HHA services claims and

   •   continue to strengthen internal controls to detect and recover improper payments for
       HHA services.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our recommendations
and described corrective actions that it planned to take. The State agency’s comments appear in
their entirety as Appendix C.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicaid Program and Home Health Agency Services ......................................1
              Nebraska Department of Health & Human Services ...........................................1
              Nebraska Home Health Agency Services ............................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2
               Objective ..............................................................................................................2
               Scope ....................................................................................................................2
               Methodology ........................................................................................................3

FINDINGS AND RECOMMENDATIONS ............................................................................3

          UNALLOWABLE HOME HEALTH AGENCY SERVICES....................................... 4
              Unauthorized Services ........................................................................................ 4
              Billed Services Not Rendered ............................................................................. 4
              Unsupported Services ......................................................................................... 4

          UNALLOWABLE CLAIMS FOR FEDERAL REIMBURSEMENT ........................... 5

          RECOMMENDATIONS .................................................................................................5

          STATE AGENCY COMMENTS ....................................................................................5

APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: STATE AGENCY COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Medicaid Program and Home Health Agency Services

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Section 1905 of the Act authorizes State Medicaid agencies to provide home health agency
(HHA) services to Medicaid recipients. Pursuant to 42 CFR § 440.70, these services include
skilled nursing services, home health aide services, and medical supplies and equipment. In
addition, the HHA services may also include physical therapy, occupational therapy, or speech
pathology and audiology services.

Nebraska Department of Health & Human Services

In Nebraska, the Department of Health & Human Services (State agency) administers the State’s
Medicaid program. During the period July 1, 2008, through June 30, 2009 (our audit period), the
State agency paid approximately 21,000 Medicaid claims for HHA services.

The responsibilities of the State agency include processing and monitoring HHA claims. As part
of its monitoring responsibilities, the State agency has controls in place to ensure that payment
limitations, such as a daily payment cap on nursing services and limits on therapy services, are
not exceeded. If a problem or concern is identified, the State agency reviews a provider’s
supporting documentation to ensure that the payment is appropriate.

On a quarterly basis, the State agency submits to CMS its standard Form CMS-64, Quarterly
Medicaid Statement of Expenditures for the Medical Assistance Program (CMS-64 report), to
summarize, by category of service, Medicaid expenditures for Federal reimbursement. CMS
reimburses the State agency the Federal share of the State agency’s claimed costs, based on the
Federal medical assistance percentage (FMAP). The State of Nebraska’s FMAP for the period
July 1, 2008, through September 30, 2008, was 58.02 percent. The American Recovery and
Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted February 17, 2009,
authorized the States to receive a higher FMAP. For the period October 1, 2008, through
March 31, 2009, the State of Nebraska’s FMAP was increased to 65.74 percent under the
provisions of the Recovery Act. For the period April 1, 2009, through June 30, 2009, the State
of Nebraska’s FMAP was increased to 67.79 percent under these same provisions.




                                                1
Nebraska Home Health Agency Services

Nebraska Administrative Code 471, section 9-002.02, states that all home health services must
be necessary to a continuing medical treatment plan, prescribed by a licensed physician, and
recertified by the licensed physician every 60 days. In addition, Nebraska Administrative Code
471, section 9-002.04, requires HHAs to maintain clinical records that include a plan of care for
each client, signed by the physician responsible for that client’s care.

HHAs submit claims to the State agency in order to receive compensation for the services they
provide to Medicaid recipients. Payments for HHA claims are made on a per-visit basis,
whereby a visit is defined as consisting of 1 to 8 units and each unit is 15 minutes long.
(Services which require more than 8 units of service are paid for on an hourly basis.) Nebraska
Administrative Code 471, section 2-001.03, requires that HHAs submit claims which are true,
accurate, and complete, and maintain records on all services provided for which a claim has been
made. HHAs submit claims covering a period of time to the State agency; each claim may
contain multiple types of services.

For the period July 1, 2008, through June 30, 2009, the State agency claimed services totaling
approximately $23.1 million (approximately $14.9 million Federal share) for 85 HHA providers.
We are reviewing the amounts claimed for one of these HHA providers (First Care Home Health
Agency (approximately $2.8 million; approximately $1.8 million Federal share)) in a separate
audit (report number A-07-10-01086).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed costs for HHA services in
accordance with Federal and State requirements.

Scope

We reviewed claims for 84 HHA providers throughout the State of Nebraska totaling
$20,310,628 ($13,070,329 Federal share) received from the State agency as reimbursement for
the period July 1, 2008, though June 30, 2009.

We did not review the State agency’s overall internal control structure because our objective did
not require us to do so. We limited our internal control review to those controls related directly
to processing and monitoring HHA claims.

We conducted our fieldwork from April through June 2010 at the State agency and at the 37
provider locations in our simple random sample. We did not review the sampled claims to
determine medical necessity.




                                                2
Methodology

To accomplish our objective, we:

   •   reviewed Federal and State laws, regulations, and other requirements regarding Medicaid
       reimbursement for HHA services, as well as the Nebraska State plan;

   •   interviewed officials at the State agency to gain an understanding of how they administer
       and monitor the Medicaid HHA program;

   •   reconciled the State agency’s electronic claims data to the CMS-64 reports for the period
       July 1, 2008, through June 30, 2009;

   •   selected a simple random sample of 100 HHA claims from 84 HHA providers in the State
       of Nebraska, totaling $113,043 ($71,401 Federal share);

   •   obtained and reviewed the supporting documentation for each sampled claim to
       determine the allowability of the services claimed; and

   •   provided the results of our review and discussed those results with State agency officials
       on June 3, 2010.

Appendixes A and B contains details of our sampling and projection methodologies.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

The State agency claimed some costs for HHA services that were not in accordance with Federal
or State requirements. Our review of the 100 claims in our sample showed that 9 claims had
errors totaling $764 ($489 Federal share) of improper Medicaid reimbursement. The errors
included 4 claims with unauthorized services, 4 claims for which a billed service was not
rendered, and 1 claim with unsupported services.

Based on the results of our sample, we estimated that the State agency improperly claimed
$56,049 ($36,761 Federal share) for HHA services that did not comply with Federal and State
requirements.




                                                3
UNALLOWABLE HOME HEALTH AGENCY SERVICES

Unauthorized Services

Pursuant to 42 CFR § 440.70, HHA services are provided to a recipient under a physician’s
orders as a part of a written plan of care.

According to Nebraska Administrative Code 471, section 9-002.02, all home health services
must be necessary to a continuing medical treatment plan, prescribed by a licensed physician,
and recertified by the licensed physician every 60 days. Further, Nebraska Administrative Code
471, section 9-002.04, requires that HHAs’ clinical records include a plan of care for each client,
signed by the physician responsible for that client’s care.

For 4 of the 100 sampled claims, the State agency did not claim some costs pursuant to these
Federal and State requirements. Specifically, the State agency paid for HHA services for which
the frequency of the services provided exceeded the limits prescribed on the recipient’s written
plan of care.

For each of these four claims, the HHA billed either a skilled nursing visit or a period of home
health aide hours that was in excess of the limit prescribed on the written plan of care.

Billed Services Not Rendered

Nebraska Administrative Code 471, section 2-001.03, states that by signing a provider agreement
with the State agency, the provider agrees to “[s]ubmit claims which are true, accurate, and
complete.”

For 4 of the 100 sampled claims, the State agency improperly claimed costs for HHA services.

For these four claims, the provider billed for at least 1 hour of service in excess of what was
supported in the visit notes; thus the claims were not accurate. For example, one of the claims
billed 11 hours of service when only 10 hours were documented and supported in the visit notes.

Unsupported Services

Nebraska Administrative Code 471, section 2-001.03, states that by signing a provider agreement
with the State agency, the provider agrees to “[m]aintain records on all services provided for
which a claim has been made, and furnish on request, the records to the Department [the State
agency], the federal Department of Health and Human Services, and the federal or state fraud
and abuse units.”

Further. the CMS State Medicaid Manual, section 2500.2(A), requires that the State agency
“[r]eport only expenditures for which all supporting documentation, in readily reviewable form,
has been compiled and which is immediately available when the claim is filed.” (Emphasis in
original.)



                                                 4
For 1 of the 100 sampled claims, the State agency claimed costs for HHA services for which it
did not maintain supporting documentation pursuant to Federal and State requirements. For this
claim, a provider billed for a 2-hour skilled nursing visit, but was unable to provide us with any
documentation to support the services billed.

UNALLOWABLE CLAIMS FOR FEDERAL REIMBURSEMENT

Of the 100 HHA claims in our sample, 9 had errors totaling $764 ($489 Federal share) of
improper Medicaid reimbursement. Based on the results of our sample, we estimated that the
State agency improperly claimed $56,049 ($36,761 Federal share) for HHA services that did not
comply with Federal and State requirements. Although the State agency had controls in place to
ensure that payments were appropriate for HHA claims, these controls did not always prevent the
overpayments.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $36,761 to the Federal Government for unallowable HHA services claims and

   •   continue to strengthen internal controls to detect and recover improper payments for
       HHA services.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our recommendations
and described corrective actions that it planned to take. The State agency’s comments appear in
their entirety as Appendix C.




                                                 5
APPENDIXES
                APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of claims representing home health agency (HHA) services paid for the
period July 1, 2008, through June 30, 2009. The population includes only those claims paid to
all providers that were not sampled as part of review A-07-10-01086.

SAMPLING FRAME

The sampling frame is a database of claim records consisting of 20,091 claims totaling
$20,310,628 ($13,070,329 Federal share) for home health services paid during the period
July 1, 2008, through June 30, 2009. The sampling frame includes only those claims paid to all
providers that were not sampled as part of review A-07-10-01086.

SAMPLE UNIT

The sampling unit is one Medicaid paid claim.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected 100 sample units (paid claims).

SOURCE OF RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General, Office of Audit
Services, statistical software (RAT-STATS).

ESTIMATION METHODOLOGY

We used RAT-STATS to estimate the unallowable payments for home health services. Because
of the significant increase in the Federal medical assistance percentage rate provided under the
American Recovery and Reinvestment Act of 2009, P.L. No. 111-5, we made separate
estimations for the total unallowable costs and for the Federal share of those unallowable costs.
                      APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                                     SAMPLE RESULTS

                                                           Number With          Value of
                                 Sample      Value of      Unallowable         Unallowable
Frame Size       Frame Value      Size        Sample        Payments            Payments
  20,091         $20,310,628       100       $113,043           9                 $764

                      ESTIMATES OF UNALLOWABLE PAYMENTS
                    (Limits Calculated for a 90-Percent Confidence Interval)

                                                                 Total Estimated
                            Total Estimated                    Unallowable Services
                          Unallowable Services                   (Federal Share)
Point estimate                  $153,530                              $98,318
Lower limit                      $56,049                              $36,761
Upper limit                     $251,012                             $159,876
                                                                                               Page 1 of 2


         APPENDIX C: STATE AGENCY COMMENTS 





                                                                               State of Nebraska
                                                                                Dave Heineman, Governor




September 17.1010




Patrick .I. Cogley
Regional Inspector General for Audit Services
Oftiee of Inspector General
Department of Health and Human Services, Region VII
60 J East 1i h Street, Room 0429
Kansas City, Missouri 64106

RE: Report Number A-07 -09-01077

Dear Mr. Cogley:

The Nebraska Department of Health and Human Services (DHBS) Division of Medicaid
and Long-'ferm Care is pleased to have the opportunity to respond to the Draft Audit
Report entitled Review of Nebraska AledicCtid Paymentsjor Home Health Agency Claims.
DHHS has strived to administer Medicaid reimbursement in compliance with current
Federal and State law, policies, and procedures and is committed to working to resolve
the issues identified in this audit review.

DHHS is also appreciative of the hard work on the part of OIG staff to gather information
from Nledicaid staff and providers. We are appreciative of your observations in helping
improve policies and procedures already in place to ensure continued compliance. Set
forth below are DHHS' specific responses to each of the preliminary findings and
recommendations identified in the Draft Audit Report.

OIG RECOMMENDATION: Refund $36,761                        to the Federal   Government for
unallowable HHA services claims,

DHHS RESPONSE: DHHS concurs with this recommendation. Medicaid providers are
aware that they must bill Medicaid appropriately and maintain complete and accurat'c
client records. Nebraska Medicaid wi! I refund (his amount to the Federal Government
and Program Integrity staff will communicate with the identified Home Health providers
to recoup any overpayments.

OIG RECOMMENDATION: Continue to strengthen internal controls to detect and
recover imprpper payments for HHA services.



                              Hl"ping P,mple liv<: Better Lives
                                                                                         Page 2 of 2




DHHS RESPONSE: DHHS concurs with this recommendation. Medicaid will explore
options for MMIS modifications that will automatically reject claims for unauthorized
services. Medicaid will work with the Division of Public Health to address and resolve
concerns regarding inadequate provider documentation of client services. Medicaid will
also educate providers on the importance of maintaining appropriate documentation.

Sincerely,


  ~~
Vivianne M. Chaumont, Director
Division of Medicaid & Long-Term Care
Department of Health and Human Services
